Supreme Court, U.S.
FILED

AUG 0 4 2020

No. <20-/70

OFFICE OF THE CLERK

IN THE

SUPREME COURT OF THE UNITED STATES
KAREN C. HAN,
Petitioner,
v.

HANKOOK TIRE CO., LTD.,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Sixth Circuit

PETITION FOR WRIT OF CERTIORARI

Karen C. Han, pro se
2512 Carroll Ct.
Flower Mound, Texas 75022
Phone: (972) 355-7480
karenh514@gmail.com

3 u lyJv '

nm
{

PilutilS!

tl LJ

RECSEVED
AUG 11 2020
OFFICE OF THF ,~LFRK
SUPl'tCiViti COuh ;; U.S.

QUESTION PRESENTED
Whether the doctrine of judicial estoppel can be applied to defeat subject
matter jurisdiction that otherwise exists—while it cannot be used to create
subject matter jurisdiction that otherwise does not exist—such that a federal
court has discretion to dismiss a plaintiffs diversity action with prejudice for its
alleged change in position regarding matters of subject matter jurisdiction that
are unrelated to the merits of a case?

PARTIES TO THE PROCEEDINGS BELOW
Petitioner Karen C. Han was the plaintiff in the district court proceedings
and appellant in the court of appeals proceedings. Respondent Hankook Tire
Co., Ltd. was the defendant in the district court proceedings and appellee in the
court of appeals proceedings.

.

ii

TABLE OF CONTENTS
QUESTION PRESENTED

l

PARTIES TO THE PROCEEDINGS BELOW.

11

TABLE OF CONTENTS

in

TABLE OF AUTHORITIES

v

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

STATUTES AND CONSTITUTIONAL PROVISIONS INVOLVED

2

INTRODUCTION AND STATEMENT OF THE CASE

2

I. The First Action

3

II. The Second Action,

,4

III. The District Court's Judicial Estoppel Decision To Defeat Subject Matter
5
Jurisdiction That Otherwise Exists
5

IV. The Sixth Circuit's Decision
REASONS FOR GRANTING THE PETITION

6

I. The Sixth Circuit Decision Reflects An Existing Circuit Split Regarding
The Use Of Judicial Estoppel To Defeat Subject Matter Jurisdiction That
Otherwise Exists......................................................................................... 7
A. The Sixth Circuit Approved The District Court's Judicial Estoppel
Decision To Decline Subject Matter Jurisdiction That Otherwise
Exists..............................................................................................

7

B. Majority Of Circuits Have Declined To Use Judicial Estoppel To
Defeat Subject Matter Jurisdiction As Well As To Create Subject
Matter Jurisdiction........................................................................

9

iii

II. The Circuit Split Has Serious Impact And Legal Ramification On
Citizens' Statutory And Constitutional Access To Federal Forum...

13

15

CONCLUSION
APPENDIX

Appendix A (Opinion, United States Court of Appeals For The Sixth Circuit
la
filed January 23, 2020)
Appendix B (Order Denying Motion For Reconsideration, United States
District Court For The Northern District Of Ohio filed July 3, 2019)........ 7a
Appendix C (Opinion, United States District Court For The Northern
District Of Ohio filed August 28, 2018)...............................................

18a

Appendix D (Opinion, United States District Court For The Northern
District Of Ohio filed February 1, 2008)..............................................

23a

Appendix E (Order Denying Petition For Panel Rehearing And Rehearing
En Banc, United States Court of Appeals For The Sixth Circuit
28a
filed March 11, 2020)

iv

TABLE OF AUTHORITIES
Cases
Bonzel v. Pfizer, Inc.,
439 F.3d 1358 (Fed. Cir. 2006)

11

California Motor Transp. Co. v. Trucking Unlimited,
404 U.S. 508, 92 S.Ct. 609, 30 L.Ed.2d 642 (1972)

13

Carnegie-Mellon Univ. v. Cohill,
484 U.S. 343 (1988)........

2, 13

Chambers v. NASCO, Inc.,
501 U.S. 32 (1991).

6

Colorado River Water Cons. Dist. v. U.S.,
424 U.S. 800(1976)......................

13

Da Silva v. Kinsho Int'l Corp.,
229 F.3d 358 (2d Cir. 2000)

11-12

E-Pass Techs v. Mosses & Singer, LLP,
2011 WL 5357912 (N.D. Cal. Nov. 4, 2011)

12

Gonzalez v. Thaler,
565 U.S. 134 (2012)

13

In re Southwestern Bell Tel. Co.,
535 F.2d 859 (5th Cir. 1976)

10

Insurance Corp. ofIreland v. Compagnie des Bauxites de Guinee,
456 U.S. 694(1982)............................................................
Jackson v. Richards Medical Co.,
961 F.2d 575 (6th Cir. 1992)

7,8

9

Klein v. Stahl GMBH Co. Maschinefabrik,
185 F.3d 98 (3rd Cir. 1999)............

14

Pegram v. Herdrich,
530 U.S. 211 (2000)

14

Peninsula Asset Management (Cayman) Ltd. v, Hankook Tire,
476 F. 3d 140 (2nd Cir. 2007).......................................

3

Peninsula Asset Management (Cayman) Ltd. v, Hankook Tire,
509 F.3d 271 (6th Cir. 2007).........................................

3

Prati v. U.S.,
603 F.3d 1301 (Fed. Cir. 2010)

11

Scheuer v. Rhodes,
416 U.S. 232, 94 S.Ct. 1683, 40 L.Ed.2d 90 (1974)

9

Sexual Minorities Uganda v. Lively,
899 F.3d 24 (1st Cir. 2018)...

5, 8

Statutes
1

28 U.S.C. § 1254(1)

Rules
14

Fed. R. Civ. P. 19

5

Fed. R. Civ. P. 59(e)

Other Authorities
18B Wright, Miller & Cooper,
Federal Practice and Procedure Jurisdiction 2d § 4477

vi

9-10, 11, 12, 14

PETITION FOR A WRIT OF CERTIORARI
Karen C. Han ("Han") petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the Sixth Circuit (the "Sixth
Circuit") in this case.
OPINIONS BELOW
The Sixth Circuit’s unreported opinion and order denying petition for
panel rehearing and rehearing en banc are reproduced at App. la-6a and App.
28a, respectively. The unreported opinion of the United States District Court for
the Northern District Of Ohio and its order denying motion for reconsideration
are reproduced at App. 18a-22a and App. 7a-17a, respectively.
JURISDICTION
This Court has jurisdiction pursuant to 28 U.S.C. § 1254(1). The Sixth
Circuit issued its opinion and judgment on January 23, 2020. App. la-6a. The
Sixth Court denied the timely petition for panel rehearing and rehearing en banc
on March 11, 2020. App. 28a. On March 19, 2020, in light of the public health
concerns relating to COVID-19, this Court extended the time for filing any
petition for a writ of certiorari to 150 days from the date of the order denying a
timely petition for rehearing. See (Order List: 589 U.S.)1

1 As permitted by this Court's order dated April 15, 2020, Han files a single
paper copy of this petition for writ of certiorari, formatted on 8 1/2 x 11 inch
paper.
l

STATUES AND CONSTITUTIONAL PROVISIONS INVOLVED
This case does not involve interpretation of statutory and constitutional
provisions.
INTRODUCTION AND STATEMENT OF THE CASE
The intersection of an invocation of judicial estoppel and an
infringement on a citizen's statutory and constitutional right of court access is
precisely what defines this case. The Sixth Circuit concluded that it is "within
the court's discretion" to dismiss Han's claims with prejudice as a sanction for
reasons unrelated to the merits of the case "[bjecause Han previously disavowed
the capacity to bring the claims she sets out in the present complaintf.]" App.
5a-6a.
The Sixth Circuit was wrong to do so and it is of exceptional public
importance that this error be corrected since this decision infringes on citizens'
constitutional right of access to federal court. Furthermore, this conclusion that
the doctrine of judicial estoppel can be applied to defeat subject matter
jurisdiction that otherwise exists directly contradicts this Court's precedent that
a federal court's diversity jurisdiction over a case is "not discretionary" such that
the court cannot properly eliminate the case from its docket, whether by a
remand or by a dismissal. Camegie-Mellon Univ. v. Cohill, 484 U.S. 343, 356
(1988).
This conclusion also placed the Sixth Circuit at odds with other circuits
2

which have held that judicial estoppel does not apply not only to create the
subject matter jurisdiction that otherwise lacks but also to defeat the subject
matter jurisdiction that otherwise exists.
I. The First Action
In 2004, Han and her business entity, Peninsula Asset Management
(Cayman) Ltd. ("Peninsula"), instituted an action against Respondent Hankook
Tire Co., Ltd. ("Hankook") in the United States District Court for the Northern
District Court of Ohio ("the district court"), alleging breach of contract, fraud
and other causes of action (the "First Action"). App. 24a-27a. Han and
Peninsula's inability to obtain discovery from a third party, Peninsula Asset
Management (Cayman) Ltd. v. Hankook Tire, 476 F.3d 140, 142 (2nd Cir. 2007),
resulted in the award by the district court of summary judgment in favor of
Hankook, from which Han and Peninsula appealed. Peninsula Asset
Management (Cayman) Ltd. v. Hankook Tire, 509 F.3d 271, 272 (6th Cir. 2007).
The Sixth Circuit, sua sponte, raised the question of subject matter
jurisdiction, finding that diversity was defeated because of presence of alien
companies on both sides of the dispute. Id. at 272-273.
Upon remand from the Sixth Circuit, simply agreeing with the Sixth
Circuit with regard to the jurisdictional defect, the district court dismissed the
First Action for lack of subject matter jurisdiction without considering or
accepting any positions of the parties. App. 26a. The district court specifically
3

stated that: "its conclusion that diversity jurisdiction exists" was "an erroneous
legal conclusion." Id. Rejecting Hankook's argument that "Peninsula is a
dispensable and nominal party and probably did not even exist at the time of the
filing of the complaint[,]" by reference only to allegations in the complaint and
making paragraph citations to the complaint, the district court also concluded
that Peninsula was neither dispensable nor nominal because the complaint
alleges facts sufficient to indicate that Peninsula's business was the subject of or
basis for plaintiffs' claims in the First Action. Id. 26a -27a.
II. The Second Action
In 2017, Han re-filed her claims against Hankook, pursuing them
individually and as the real party in interest for Peninsula (the "Second Action"),
which Han asserted no longer existed at the time of the filing of the Second
Action. App. 3a. Hankook filed its motion to dismiss for failure to state a claim,
and for the first time in its reply brief argued that Han was judicially estopped
from claiming that Peninsula was a dispensable party in the Second Action. App.
8a.
Finding the non-joiner of non-diverse Peninsula in the Second Action to
be inconsistent with her alleged prior representation in the First action that
Peninsula was indispensable, the district court applied the doctrine of judicial
estoppel and dismissed the Second Action with prejudice. App. 20a-22a. In
dismissing the Second Action, the district court made it clear that its holding

was not a disposition on the merits. App. 20a. ("Recognizing the procedural
background of this case, the Court holds that the merits of the claims are
irrelevant to adjudication on this matter.").
III. The District Court’s Judicial Estoppel Decision To Defeat Subject
Matter Jurisdiction That Otherwise Exists.
Han filed her Fed.R.Civ.R 59(e) motion for reconsideration of the district
court's order granting Hankook's motion to dismiss, principally asserting that
judicial estoppel cannot be applied to questions of subject matter jurisdiction.
App. 10a.
The district court denied Han's motion for reconsideration, concluding,
relying on Sexual Minorities Uganda v. Lively, 899 F.3d 24 (1st Cir. 2018), that
the doctrine of judicial estoppel can be applied to defeat jurisdiction although
the doctrine cannot be invoked to create jurisdiction. App. 1 la-12a.
IV. The Sixth Circuit’s Decision
The Sixth Circuit affirmed the district court's judicial estoppel decision,
concluding that: because "[t]o sidestep the summary-judgment loss in the first
case [which was vacated by the court on appeal due to lack of subject matter
jurisdiction], [on remand] Han argued that she (1) lacked the capacity to pursue
claims on behalf of Peninsula and (2) had no individual claims that could be
adjudicated without Peninsula[,]" Han's claims should be dismissed with
prejudice due to Han's inconsistent position taken in the Second Action that she,
as the real party in interest for Peninsula, can bring the action without Peninsula.
5

Id. 6a.
Relying on Chambers v. NASCO, Inc., 501 U.S. 32, 45 (1991)
"(observing that 'outright dismissal of a lawsuit,' although it is a 'particularly
severe sanction' is 'within the court’s discretion') [,]" the Sixth Circuit also held
that: "[b]ecause Han previously disavowed the capacity to bring the claims she
sets out in the present complaint, dismissal with prejudice is the only adequate
sanction." App. 5a-6a.
Han filed a timely petition for panel rehearing and rehearing en banc.
The Sixth Circuit denied the petition. App. 28a.
REASONS FOR GRANTING THE PETITION
About ten years after the dismissal of the First Action for lack of subject
matter jurisdiction, the district court dismissed the Second Action with prejudice,
finding that Han was judicially estopped from asserting her claims since she
played fast and loose with the district court by taking an inconsistent position
regarding her non-diverse business entity, Peninsula. App. 20a-22a.
A question should quickly arise: what did Han do so wrong that the
district court terminated her claims for good without ruling on the merits of her
claims? The answer is: Han did nothing improper. Han did not name Peninsula
as co-plaintiff in the Second Action because Peninsula ceased to exist at the
time of the filing of the Second Action in 2017 as it was costly to maintain its
registration in the place of its incorporation with no hope of getting back in
6

finance business since the First Action was dismissed in 2008.
This Court held in Insurance Corp. ofIreland v. Compagnie des Bauxites
de Guinee, 456 U.S. 694, 702,102 S.Ct. 2099, 72 L.Ed.2d 492 (1982) that since
"[s]ubject-matter jurisdiction [] is an Art. Ill as well as a statutory
requirement...principles of estoppel do not apply [to questions of subject-matter
jurisdiction]" ("the Insurance Corp. of Ireland principle"). The district court
interpreted this fundamental principle to mean that although judicial estoppel
cannot be applied to establish or create jurisdiction that otherwise exists, it can
be used to defeat or decline jurisdiction over a case. App. 1 la-12a.
The Sixth Circuit's decision to approve such use of judicial estoppel by
the district court—which resulted in an infringement on a citizen's statutory and
constitutional right of access to federal forum—added to an existing circuit split
of exceptional importance regarding invocation of judicial estoppel in the
context of subject matter jurisdiction.
This Court should grant review to eliminate discrepancies among circuits,
and clarify the Insurance Corp. ofIreland principle.
I. The Sixth Circuit Decision Reflects An Existing Circuit Split
Regarding The Use of Judicial Estoppel To Defeat Subject Matter
Jurisdiction That Otherwise Exists.
A. The Sixth Circuit Approved The District Court’s Judicial Estoppel
Decision To Decline Subject Matter Jurisdiction That Otherwise
Exists.
In the proceedings below, citing Insurance Corp. of Ireland, Hankook
7

conceded that "judicial estoppel cannot be employed to establish or expand
federal jurisdiction" since "no action of the parties can confer subject-matter
jurisdiction upon a federal court[,]” id., 456 U.S. at 702; but it insisted that “this
case is different. Here, [the Cjourt properly applied judicial estoppel not to
establish or expand jurisdiction, but to dismiss a case because of Han’s
unseemly gamesmanship.” App. 11a (alteration and emphasis in original).
Hankook's argument rested on the First Circuit's decision in Sexual
Minorities Uganda that judicial estoppel can be applied to decline, not establish,
jurisdiction over a case. App. 11a. The First Circuit explained:
"[Defendant] overlooks, though, that this is a one-way ratchet.
Even though federal subject-matter jurisdiction cannot be
established through waiver or estoppel, it may be defeated by
waiver or estoppel. For example, a federal court is not required to
assume jurisdiction under a theory that a party has waived. So, too,
although the doctrine of judicial estoppel cannot be applied to
create federal subject-matter jurisdiction that is otherwise lacking,
it may be applied to prevent a party from basing federal subjectmatter jurisdiction on facts that directly contradict his previous
representations to another tribunal."
Sexual Minorities Uganda, 899 F.3d at 34 (citations omitted); App. 11a.
Adopting the reasoning in Sexual Minorities Uganda, the district court
concluded that: "the Court did not apply judicial estoppel for the improper
purpose of creating jurisdiction where it was otherwise lacking. Instead, the
Court applied the doctrine to protect the integrity of the judicial system by
holding a party to a previously asserted position." App. 12a. Thus, the district
court dismissed the Second Action, invoking judicial estoppel to defeat the
8

subject matter jurisdiction that otherwise exists in this case.2 The Sixth Circuit
sanctioned such use of judicial estoppel to decline subject matter jurisdiction,
stating that:
"Finding [Han's jurisdictional] assertion [in the Second Action] to be
inconsistent with her prior representation that Peninsula was
indispensable, the district judge applied the doctrine of judicial
estoppel and dismissed the case with prejudice... Because the district
judge properly applied judicial estoppel to dismiss Han’s claims
with prejudice, we affirm."
App. la-2a.
B. Majority Of Circuits Have Declined To Use Judicial Estoppel
To Defeat Subject Matter Jurisdiction As Well As To Create
Subject Matter Jurisdiction.
As shown below, unlike the First and Sixth Circuits, other circuits that
have weighed in on this issue have declined to use judicial estoppel to defeat
subject matter jurisdiction when it exists. Hence, if the Second Action had been
filed in such circuits that have refused to invoke judicial estoppel in this context,
the district court's judicial estoppel decision would have been reversed on
appeal.
"The interests of the courts in protecting themselves and opposing parties
2 It was undisputed in the proceedings below that diversity jurisdiction was
established at the time of the filing of the Second Action since the non-diverse
Peninsula was not named as plaintiff in the complaint and Han asserted
Peninsula did not exist as of the filing of the Second Action. See Jackson v.
Richards Medical Co., 961 F.2d 575, 578 (6th Cir. 1992) ("[i]n considering a
motion to dismiss for lack of subject matter jurisdiction, the complaint is to be
liberally construed and all uncontroverted factual allegations on the face of the
complaint are to be taken as true.") (citing Scheuer v. Rhodes, 416 U.S. 232,236,
94 S.Ct. 1683,1686,40 L.Ed.2d 90 (1974))
9

against inconsistency may yield to such interests as the desire to protect against
deciding a case when federal subject-matter jurisdiction does not exist [footnote
83 collecting cases addressing 'No subject-matter jurisdiction estoppel'], [and]
to exercise federal subject-matter jurisdiction when it does exist [footnote 84
collecting cases addressing 'Exercise subject-matter jurisdiction.']" 18B Wright,
Miller & Cooper, Federal Practice and Procedure ("Wright & Miller"),
Jurisdiction 2d § 4477, at 599-600.
For instance, the Fifth Circuit held that the doctrine of judicial estoppel
would not be applied to defeat jurisdiction of a diversity action against a
corporation that averred it was a Missouri corporation with its principal place of
business in Missouri, even if in an earlier state-court action it had asserted that it
was a Texas corporation domiciled in Texas. In re Southwestern Bell Tel. Co.,
535 F.2d 859, 860-861 (5th Cir. 1976). Thus, contrary to the First and Sixth
Circuit's conclusion, the Fifth Circuit concluded that the doctrine of judicial
estoppel does not apply to decline jurisdiction as well as to create jurisdiction.
The court in the case reasoned that:
"Whatever the scope of the doctrine [ofjudicial estoppel] may be, so
far as we have been able to discover it has never been employed to
prevent a party from taking advantage of a federal forum when he
otherwise meets the statutory requirements of federal jurisdiction.
Persons who meet those criteria have a statutory, and indeed a
constitutional, right to resort to the federal courts. A district court
has no authority to negate that right simply because such a person
has not observed the consistency in pleading..."
10

'cl

Id. at 861.

h<

The Federal Circuit also held that:

fr

"We do not rely primarily on the theory of estoppel to negate federal
jurisdiction, for even if judicial estoppel can be founded on
jurisdiction...[the plaintiff] sufficiently changed his complaint to
require a fresh look in the district court. However, he still has not
brought an action for patent infringement; his counts sound in
contract and tort, as before."

oi
h{

aI

Bonzel v. Pfizer, Inc., 439 F.3d 1358, 1363 (Fed. Cir. 2006) (internal quotation

n<
mark and citation omitted).
c]

"[Plaintiffs] were not judicially estopped from continuing to argue there
was jurisdiction of their claims" after making a representation that the holdings
tn
in the parallel action should resolve the jurisdictional issues on appeal. 18B
a
a
5

P

Wright & Miller, § 4477 (2d ed. 2018 Supplement), at 258 n. 84 (citing Prati v.
U.S., 603 F.3d 1301,1304-1305 (Fed. Cir. 2010)).
The Second Circuit in Da Silva held that although the plaintiff-appellant
invoked the jurisdiction of the district court, on appeal she, having lost the
merits of her pendant state law claims, challenged the district court's subject

It.

matter jurisdiction in order to relitigate these claims in state court; on the other
ft

hand, the defendant-appellee, having disputed the district court's jurisdiction,
a
contended on appeal that the district court had subject matter jurisdiction. Da
it

Silva v. Kinsho Int’l Corp., 229 F.3d 358, 361 (2d Cir. 2000).
ft

Noting that "the parties, in Justice Jackson's memorable phrase, have
11

order to reject the First and Sixth Circuits' approach in this matter, and to clarify
the Insurance Corp. ofIreland principle.
II. The Circuit Split Has Serious Impact And Legal Ramification On
Citizens’ Statutory And Constitutional Access To Federal Forum.
This case provides a good illustration of a federal court's infringement on
a citizen's statutory and constitutional right of access to federal forum.
As discussed above, majority of circuits have declined to use judicial
estoppel to defeat federal subject-matter jurisdiction when it does exist. The
purpose of refusal to invoke judicial estoppel in this context reflects two other
fundamental principles of law developed for decades in federal jurisprudence.
First, federal courts have "virtually unflagging obligation [] to exercise the
jurisdiction given them." Colorado River Water Cons. Dist. v. U.S., 424 U.S.
800, 817 (1976); see also Gonzalez v. Thaler, 565 U.S. 134, 141 (2012)
(“Subject-matter jurisdiction can never be waived or forfeited”); CarnegieMellon Univ., 484 U.S. at 356 (“The court had diversity jurisdiction over the
case, which is not discretionary").
Second, more importantly, from the perspective of civil rights, citizens
have statutory and constitutional right of access to federal courts as long as their
claims meet the statutory and Article III requirements. See, e.g., California
Motor Transp. Co. v. Trucking Unlimited, 404 U.S. 508, 510, 92 S.Ct. 609, 611,
30 L.Ed.2d 642 (1972) ("The right of access to the courts is indeed but one
aspect of the right of petition [under the First Amendment]").
13

Accordingly, having in mind these two principles, majority of courts
have consistently rejected the very conclusion the First and Sixth Circuits
reached that judicial estoppel can be applied to defeat subject matter jurisdiction
that otherwise exists.
Klein v. Stahl GMBH Co. Maschinefabrik, 185 F.3d 98 (3rd Cir. 1999)
provides a good example of the danger that judicial estoppel will be used as a
sanction. The district court in Klein invoked judicial estoppel as a sanction for
bad faith inconsistency, granting summary judgment. Id. at 101. The Third
Circuit reversed the judgment, invoking the rule that the court must first explore
all sanctions explicitly provided by the Civil Rules, then—if no Rule proves
sufficient—use the least damaging sanction drawn from inherent authority and
suitable to the task. 18B Wright & Miller, Jurisdiction 2d § 4477, at 611 n.98
(discussing Klein).
"Any desire to impose sanctions for playing fast and loose with the
removal question can be satisfied by refusing remand, so long as there is subject
matter jurisdiction." Id. (discussing Pegram v. Herdrich, 530 U.S. 211 (2000).
As set forth above, here in this case, even if judicial estoppel can be applied to
preclude Han from asserting Peninsula is a dispensable party, the maximum
estoppel sanction permitted by law is a dismissal of this action for failure to join
an indispensible party without prejudice, after conducting a Fed.R.Civ.P. 19
analysis.
14

In light of the foregoing reasons, this Court should grant this petition for
writ of certiorari in order to correct the Sixth Circuit's erroneous holding that
has serious impact and legal ramification on citizens' statutory and
constitutional right of access to federal courts.
CONCLUSION
For the foregoing reasons, the Court should grant Han's petition for writ
of certiorari.
Respectfully Submitted,

Karen C. Han, pro se
2512 Carroll Ct.
Flower Mound, Texas 75022
Phone: (972) 355-7480
karenh514@gmail.com

15

